Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




       ALLOWABILITY OF
 RECOVERY ACT COSTS CLAIMED
 BY GRACE HILL NEIGHBORHOOD
     HEALTH CENTERS, INC.,
FOR THE PERIOD MARCH 27, 2009,
   THROUGH MARCH 26, 2011

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                     September 2012
                                                      A-07-11-05022
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2.0 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS) and
Capital Improvement Program (CIP) grants.

Grace Hill Neighborhood Health Centers, Inc. (Grace Hill), is a nonprofit organization founded
in 1906 that provides low-cost primary and preventive health care at six locations to primarily
low-income and uninsured residents in the city of St. Louis, Missouri. Under the provisions of
the Recovery Act, HRSA awarded Grace Hill two grants totaling $2,460,075. These grants
included an IDS grant in the amount of $773,465 and a CIP grant of $1,686,610. This report
presents the results of our review of the IDS grant (number H8BCS11968); we are separately
reporting on the results of our review of the CIP grant.

OBJECTIVE

Our objective was to determine whether costs claimed by Grace Hill under the IDS Recovery
Act grant were allowable pursuant to applicable Federal regulations and the terms of the grant.

SUMMARY OF FINDINGS

Costs claimed by Grace Hill under the IDS Recovery Act grant were generally allowable
pursuant to applicable Federal regulations and the terms of the grant. Of the $773,465 that Grace
Hill claimed, $708,864 was allowable pursuant to these requirements. However, Grace Hill
claimed unallowable costs totaling $64,601 for drawdown amounts that were not in accordance
with Federal requirements and the terms of the grant and for incorrectly claimed expenditures.

RECOMMENDATIONS

We recommend that HRSA:

   •   recoup $64,601 in unallowable expenditures from Grace Hill and
                                              i
   •   ensure that Grace Hill strengthens its internal controls by incorporating additional levels
       of review into the allocation of grant expenditures to ensure accuracy of costs claimed.

GRANTEE COMMENTS

In written comments on our draft report, Grace Hill agreed that $8,227 in incorrectly claimed
expenditures for consulting fees had been misclassified to the IDS grant. However, Grace Hill
disagreed with our finding on $56,374 in funds that were unallowably drawn down. Grace Hill
said that it had drawn down $55,374 from the CIP grant rather than the IDS grant due to a
“clerical error.” Grace Hill stated that it had communicated with the HHS, Division of Payment
Management, in attempts to correct this error and added that it did not request a formal extension
because it relied on verbal instructions from the Division of Payment Management.

Grace Hill’s comments appear in their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE TO GRANTEE COMMENTS

After reviewing Grace Hill’s comments, we maintain that the $56,374 in funds was unallowably
drawn down. Federal regulations specify that the recipient of grant funds shall liquidate all
obligations incurred under the award not later than 90 calendar days after the funding period or
the date of completion. These regulations also specify that the 90-day limit for liquidation may
be exceeded only if the HHS awarding agency authorizes an extension. In response to our query,
HRSA stated that it was not aware of any request for extension.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with both of our recommendations
and said that it would ensure that Grace Hill adheres to the corrective actions described to
address our audit finding. HRSA’s comments appear in their entirety as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION...................................................................................................................1

          BACKGROUND ..........................................................................................................1
              The Health Center Program ..............................................................................1
              American Recovery and Reinvestment Act Grants ..........................................1
              Grace Hill Neighborhood Health Centers, Inc ..................................................1
              Federal Requirements for Federal Grantees .....................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2
               Objective ...........................................................................................................2
               Scope .................................................................................................................2
               Methodology .....................................................................................................2

FINDINGS AND RECOMMENDATIONS .........................................................................3

          UNALLOWABLE DRAWDOWN OF FUNDS ..........................................................3

          INCORRECTLY CLAIMED EXPENDITURES.........................................................3

          RECOMMENDATIONS ..............................................................................................4

          GRANTEE COMMENTS ............................................................................................4

          OFFICE OF INSPECTOR GENERAL RESPONSE TO GRANTEE COMMENTS..5

          HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS......5

APPENDIXES

          A: GRANTEE COMMENTS

          B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2.0 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS) and
Capital Improvement Program (CIP) grants.

Grace Hill Neighborhood Health Centers, Inc.

Grace Hill Neighborhood Health Centers, Inc. (Grace Hill), is a nonprofit organization founded
in 1906 that provides low-cost primary and preventive health care at six locations to primarily
low-income and uninsured residents in the city of St. Louis, Missouri.

During calendar year 2009, and under the provisions of the Recovery Act, HRSA awarded Grace
Hill two grants totaling $2,460,075:

   •   an IDS grant in the amount of $773,465, awarded March 27, 2009, to increase staffing
       and extend existing services; and

   •   a CIP grant of $1,686,610, awarded June 25, 2009, for construction, renovation,
       equipment purchases, and acquisition of health information technology to serve
       the uninsured populations.

This report presents the results of our review of the IDS grant (number H8BCS11968); we are
separately reporting on the results of our review of the CIP grant.




                                               1
Federal Requirements for Federal Grantees

Title 45, part 74, of the Code of Federal Regulations (CFR) establishes uniform administrative
requirements governing HHS grants and agreements awarded to nonprofit organizations. As a
nonprofit organization in receipt of Federal funds, Grace Hill must comply with Federal cost
principles in 2 CFR pt. 230, Cost Principles for Non-Profit Organizations (Office of
Management and Budget Circular A-122), incorporated by reference at 45 CFR § 74.27(a).
These cost principles require that grant expenditures submitted for Federal reimbursement be
allowable.

To help ensure that Federal requirements are met, grantees must maintain financial management
systems in accordance with 45 CFR § 74.21. These systems must provide for accurate, current, and
complete disclosure of the financial results of each HHS-sponsored project or program (45 CFR
§ 74.21(b)(1)) and must ensure that accounting records are supported by source documentation
(45 CFR § 74.21(b)(7)). Grantees also must have written procedures for determining the
allowability of expenditures in accordance with applicable Federal cost principles and the terms and
conditions of the award (45 CFR § 74.21(b)(6)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by Grace Hill under the IDS Recovery
Act grant were allowable pursuant to applicable Federal regulations and the terms of the grant.

Scope

Our review included IDS Recovery Act costs totaling $773,465 that Grace Hill claimed for grant
number H8BCS11968 from March 27, 2009, through March 26, 2011.

We did not perform an overall assessment of Grace Hill’s internal control structure. Rather, we
reviewed only the internal controls that pertained directly to our objective.

We performed fieldwork at Grace Hill’s administrative offices in St. Louis, Missouri, in
September 2011.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed Grace Hill’s Recovery Act grant application package and HRSA’s Notices of
        Grant Award;

                                                2
   •   reviewed Grace Hill’s policies and procedures;

   •   interviewed Grace Hill officials to gain an understanding of its accounting systems,
       internal controls, and implementation of the Recovery Act grant awards;

   •   compared total costs to funds drawn from Recovery Act grants; and

   •   discussed the results of our review with Grace Hill officials on September 30, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Costs claimed by Grace Hill under the IDS Recovery Act grant were generally allowable
pursuant to applicable Federal regulations and the terms of the grant. Of the $773,465 that Grace
Hill claimed, $708,864 was allowable pursuant to these requirements. However, Grace Hill
claimed unallowable costs totaling $64,601 for drawdown amounts that were not in accordance
with Federal requirements and the terms of the grant and for incorrectly claimed expenditures.

UNALLOWABLE DRAWDOWN OF FUNDS

Pursuant to 45 CFR 74.71(b), the recipient of grant funds shall liquidate all obligations incurred
under the award not later than 90 calendar days after the funding period or the date of completion
as specified in the terms and conditions of the award or in agency implementing instructions.
This Federal regulation also specifies that the 90-day limit for liquidation may be exceeded only
if the HHS awarding agency (in this case, HRSA) authorizes an extension.

In September 2011, Grace Hill requested and received a drawdown of $56,374 on its IDS grant.
The grant period had ended on March 26, 2011, and therefore the last day that Grace Hill would
have been allowed to draw funds was June 24, 2011. Because Grace Hill did not request an
extension, it exceeded the timeframe to complete the drawdown, and any funds taken after the
90-day period were therefore unallowable.

INCORRECTLY CLAIMED EXPENDITURES

Pursuant to 2 CFR pt. 230, Appendix A, § A (2)(a), to be allowable under an award, grantee
costs must be reasonable for the performance of the award and be allocable thereto under these
principles.

Pursuant to HRSA award guidance pertaining to IDS grants, no IDS funds may be used to
support any costs related to changes to the current scope of project.
                                                 3
In February 2010, Grace Hill received and paid an invoice totaling $16,942 for consulting fees
for electronic health record (EHR) implementation support. Grace Hill used general funds to pay
this invoice. In July 2010, Grace Hill reallocated $8,227 of these costs to the IDS grant and
subsequently drew down the same amount in grant funds based on the reallocation. Neither the
application for grant funds nor the budget justification submitted by Grace Hill to HRSA
contained a request for funds to implement an EHR system. Further, Grace Hill officials told us
that this expenditure should not have been allocated to the IDS grant. Accordingly, Grace Hill
claimed unallowable costs of $8,227.

RECOMMENDATIONS

We recommend that HRSA:

   •   recoup $64,601 in unallowable expenditures from Grace Hill and

   •   ensure that Grace Hill strengthens its internal controls by incorporating additional levels
       of review into the allocation of grant expenditures to ensure accuracy of costs claimed.

GRANTEE COMMENTS

In written comments on our draft report, Grace Hill partially agreed with our findings. With
respect to the $8,227 in incorrectly claimed expenditures for consulting fees, Grace Hill agreed
that these funds had been misclassified to the IDS grant. Grace Hill added, however, that grant
expenditures had exceeded the grant amount by $6,914, and requested that this amount be
deducted from the $8,227 in determining the amount to be refunded.

In addition, Grace Hill disagreed with our finding on the $56,374 in funds that were unallowably
drawn down. Grace Hill said that in September 2010, a clerical error made while requesting
funds from the HHS, Division of Payment Management (DPM), resulted in $55,374 being taken
from the CIP grant rather than the IDS grant and recorded in Grace Hill’s general ledger as if
taken from the IDS grant. Grace Hill also stated that DPM staff instructed Grace Hill staff on the
method for correcting the quarterly reports previously filed for both grants. Grace Hill added
that DPM staff instructed Grace Hill staff (in September 2011) to draw down the remaining
funds from the IDS grant to close out the grant. “A formal extension was therefore not requested
as [Grace Hill] staff relied upon verbal instructions from DPM and believed that DPM was
authorized to make such a decision.”

With respect to both of these findings, Grace Hill also described corrective actions that it would
take going forward to prevent recurrence of these errors.

Grace Hill’s comments appear in their entirety as Appendix A.



                                                 4
OFFICE OF INSPECTOR GENERAL RESPONSE TO GRANTEE COMMENTS

After reviewing Grace Hill’s comments, we maintain that the $56,374 in funds was unallowably
drawn down. Federal regulations specify that the recipient of grant funds shall liquidate all
obligations incurred under the award not later than 90 calendar days after the funding period or
the date of completion. These regulations also specify that the 90-day limit for liquidation may
be exceeded only if the HHS awarding agency authorizes an extension. In response to our query,
HRSA stated that it was not aware of any request for extension.

Grace Hill’s request to deduct $6,914 from the $8,227 in unallowable expenses will need to be
considered by HRSA as part of the audit resolution process.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with both of our recommendations
and said that it would ensure that Grace Hill adheres to the corrective actions described to
address our audit finding. HRSA’s comments appear in their entirety as Appendix B.




                                               5
APPENDIXES
                                                                                                                                           Page 1 of3


                                 APPENDIX A: GRANTEE COMMENTS



                                                                                                                  2524HaojlPySt.

                   Grace Hill Health Centers, Inc. 
                                                             St.louis, Mlllourl61106
                                                                                                                 0ff'Kt: 114-898-1100
                                                                                                                 Apo;IOlntmtnt ~ 314-814-8700
                           Enabling Healthy, Productive Lives                                                    www.grac:t11I1LOIg
                                                                                                                 AJ&nO. frtt man, MBA, FACHf
                                                                                                                 I'midffir andChid[rnurivt ()ffi(pr
        June 25, 2012

        Mr. Patrick J. Cogley
        Regional Inspector General for Audit Services
        Office of Audit Services, Region VII
        601 East 12th Street, Room 0429
        Kansas City, MO 64106

        Dear Mr. Cogley:

        Endosed are comments from Grace Hill Health Centers, Inc. in response to the DIG audits which
        took place during the week of September 26, 2011 relat ed to HRSA gra nt C81CS413988 and
        grant H7BCS11968. Reports from the OIG dated June 18, 2012 with Report Number A-OJ-It­
        05021 and Report Number A-07-11-0S022 have been reviewed by Grace Hill Health Center, Inc.
        and considered in preparing t hese responses.

        Please cont act me at 314·814-8571 if you have questions or require additional information.

        Sincerely,

    ~VOA¢
        Janet Voss, CPA 

        Vice President and CFO 


        Enclosures 

        -As stated 





FOtJnde<l by theEplscopal Church. Diocese of Mlssouri,ln 1906 -Grace Hill Health Centers. Inc. isan equal opportunity employe •.
                                                                                                                                                  Page 2 oD




                                                                                                                       m4Had leySt.

                   Grace Hill Health Centers, Inc.                                                                     St.loul~ MisSOllri 63106
                                                                                                                       0IIitf: 114-89$·1100
                                                                                                                       AppoinlilltfU Lr.r. )14-814·8100
                           Enabling Healthy, Productive Lives                                                          www.,~fhllOl9
                                                                                                                       AlIn O. ffftlllM, MBA. fo\(HE
                                                                                                                       1'rtIIdmI-.J {bit( fMIstM Offoar



       Grace Hill Health Centers, Inc
       Response to DIG draft report for the Period March 27, 2009 through March 26, 2011
       Grant number H7BCS11968 IDS gr ant

       Response:

       On September 20, 2010, a clerical error made while requesting funds from the Division of
       Payment Management's website resulted In $55,374 being taken from the CIP grant rather than
       the IDS grant. Specifically, the error was made d ue to the labeling of the bOKes (to be checked)
       on the website (i.e., ARRACIP-09 was checked instead of ISHC-09). This funding was retord ed in
       the Grace Hill Health Cente r general ledger as If taken from the IDS grant.

       In preparing the quarterly payment management reports (425 report s), the staff member
       respon sible for the report realized the error. However, attempts at that time as well as
       subsequent attempt s to correct the error were unsuccessful. In preparing the close-out report,
       $56,374 remained available for drawdown in the IDS grant-consisting of the $55,374 noted
       above plus an addit ional $1,000 added to the grant after the initial NGA was awarded. It was at
       this point the Division of Payment Management was contacted by Grace Hill Health Center
       (GHHC) staff and notified of the problem.

       DPM instructed GHHC staff on the method for correcting the quarterly 425 reports previously
       filed for both the IDS and CIP grants. Further, DPM staff instructed GHHC staff (in September
       2011) to draw the remaining funds from the IDS grant to close out the grant. A formal
       e)[tension was therefore not requested as GHHC staff relied upon verbal instructions from DPM
       and believed that DPM was aut horized to make such a decision.

       To preven t such an error from occurring In the futu re, procedures have been implemented to
       double-check the source of f unding and to call attention t o inconsistency in funding source and
       recording of t hat source in the general ledger. In addition, GHHC st aff have been instructed to
       contact DPM immediately (rather than trying to correct the problem themselves) in the event
       such an error should occur.

       While Grace Hili acknowledges our clerical error, we restate our attempts to correct the error
       through the Payment Management System, and note that e)[penditures were made during the
       grant period as prescribed by the grant award. Therefore, we respectfully disagree that we
       should be required to repay funds that were ekpended in accordance with grant                                          ",'d,"oo
Fo unded   bylh~ EpiKO~1   Church. Dio<~s~ of Missouri, In   191)6 - G.~t~   Hili HNl1h C~nlers, Inc. Is an equal oppo'tunlty('mplo~.
                                                                                                  Page 3 of3




within the period prescribed but techniccdly drawn down from the federal government later
than prescribed by4S CFR 74.71.

Regarding the $8,227 in EHR consulting fees erroneously classified to the IDS grant rather than
to the CIP grant: Grace Hill agrees that the misclassification occurred. However, supporting
documentation supplied with the FFR filed on June 20, 2011 showed total expense of
$1,388,449 charged to the grant, less program income of $608,070; resulting in net expense of
$780,379. Thus grant elCpenditures exceeded the grant amount bV $6,914. Grace Hill requests
that this amount be deducted from $8,227 in determining the amount to repay. 


To address this issue going forward, communications related to allowable grant expenditures 

are now provided to the entire accounting staff rather than to supervisory personnel on lv. In 

addition, a secondary review of general ledger coding bv the CFO on all expenditures exceeding 

$5,000 is now being performed. 



Respectfullv submitted, 

Janet Voss, CPA 

Grace Hill Health Centers, Inc. 

                                                                                                                 Page 1 of2


                      APPENDIX B: HEALTH RESOURCE AND SERVICES
                             ADMINISTRATION COMMENTS



  /:/
~; 	
 •" .
   .
     " ' ''''''',


        '-"
                    DEPARTMF.NT OF H EALTH & H UMAN SEHVICES 	

                    ------------~== ----
                                                                                         Health Resources and servICeS
                                                                                         Administration


                                                                                         Rockvil le, M D 20857

                                                       r.',   j   5   ~0 12




                    TO: 	         Inspector General

                    FROM : 	      Administrator

                    SUBJECT: 	    OIG Draft Report: "Allowabi lity of Recovery Act Costs Claimed hy
                                  Grace Hill Neighborhood Health Centers. Inc., for the Period March 27,
                                  2009, Through March 26, 201 1" (A-07. II -OS022)

                    Allached is the Health Resources and Services Administration's (HRSA) response [0
                    the D IG's draft report. "Allowabi lily of Recovery Act Costs C laimed by Grace Hill
                    Neighborhood Health Centers, Inc., for the Period March 27, 2009. Through
                    March 26, 2011" (A-07-11-05022). If you have any questions, please contact
                    Sandy Seaton in HRSA's Office of Fedcral Assistance Management al (301 ) 443-2432.




                    Attachment
                                                                                                Page 2 of2




   Hn lth Resources and Services Administration's Comments 00 tbe OIG Draft Reporl ­
.. Allowability of Rec:overy Act Costs Claimed by G race 1Ii11 Neighborhood Health Centers. 

       Inc., for the Period M arch 27, 2009, Through March 26. 2011 » (A-07-II-OS022) 


The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA's response to the Office of Inspector General (010)
draft reco mmendations are as follows:

OIG Recommendation to URSA:

We recommend that H RSA recoup $64,601 in unallowable expenditures from Grace Hill.

HRSA Response:

URSA concurs with the DIG recommendation and will support any recovery efforts of
unallowable expenditures.

OIG Recommendation to HRSA:

We recommend that HRSA ensure that Grace Hill strengthens its internal controls by
incorporating additional levels or review into the allocation of grant expenditures to cnsure
acc uracy or costs claimed.

HRSA Res ponse:

HRSA concurs with the D IG recommendation and as indicated in its response to the draft reran,
the grantee is taking corrective actions to ensure the accuracy or costs claimed. HRSA will
assure that these correcti ve actions are adhered \0 by the grantee.
